BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-804
HOUSTON COMMUNITY COLLEGE SYSTEM,

Petitioner,
V.

DAVID BUREN WILSON,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief Amicus Curiae of the Foundation
for Individual Rights in Education (FIRE) in Support
of Neither Party contains 2,363 words, excluding the
parts of the Brief that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on July 20, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

I

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.
Date:

~

/

(k/.L 1

[seal]

AMY TRIPLETT MORGAN

Attorney at Law
Notary Public, Stale of Ohio
My Commission Has No Exp1rat1on
Date. Section 147.03 O.R C

